                                          71180                        Federal Register / Vol. 71, No. 236 / Friday, December 8, 2006 / Notices

                                          a freestanding facility. In addition,                   section of that document, and                         division of a region. Specifically, the
                                          section 1866(b)(2) of the Act authorizes                republishing the revised system of                    updating of the system locations are
                                          hospitals and other providers to impose                 records in its entirety. This notice is in            necessary to reflect new regional
                                          deductible and coinsurance charges for                  accordance with the Privacy Act                       mailing addresses, the change of the
                                          facility services, but does not allow such              requirement that agencies publish their               Region 7 headquarters office from
                                          charges by facilities or organizations                  amended systems of records in the                     Denver to Kansas City, and the division
                                          which are not provider-based.                           Federal Register when there is a                      of Region 9 into two regions (San
                                          Implementation of this provision                        revision, change, or addition. This                   Francisco and Los Angeles). This
                                          requires that CMS have information                      system of records, maintained by OIG,                 change will not otherwise increase
                                          from the required reports, so it can                    was last revised and updated on June                  access to these records.
                                          determine which facilities are provider-                19, 2003 (68 FR 36828).                                 Dated: December 4, 2006.
                                          based. Form Number: CMS–R–240                           EFFECTIVE DATE: These revisions will                  Daniel R. Levinson,
                                          (OMB#: 0938–0798); Frequency:                           become effective on January 22, 2007.                 Inspector General.
                                          Recordkeeping—On occasion; Affected                     FOR FURTHER INFORMATION CONTACT: Joel
                                          Public: Business or other for-profit, Not-              Schaer, Regulations Officer, Office of                SYSTEM NAME:
                                          for-profit institutions; Number of                      External Affairs, (202) 619–0089.                       Criminal Investigative Files of the
                                          Respondents: 750; Total Annual                          SUPPLEMENTARY INFORMATION: In                         Inspector General HHS/OS/OIG.
                                          Responses: 872; Total Annual Hours:                     accordance with the Inspector General
                                          26,063.                                                 Act of 1978, 5 U.S.C. App. 3, the                     SECURITY CLASSIFICATION:
                                             To obtain copies of the supporting                   Criminal Investigative Files system of                  None.
                                          statement and any related forms for the                 records is maintained for the purpose of
                                          proposed paperwork collections                                                                                SYSTEM LOCATION:
                                                                                                  (1) Conducting, documenting, and                         Office of Inspector General, HHS,
                                          referenced above, access CMS’ Web site                  tracking investigations conducted by
                                          address at http://www.cms.hhs.gov/                                                                            Room 5409, Wilbur J. Cohen Bldg., 330
                                                                                                  OIG or other investigative agencies                   Independence Avenue, SW.,
                                          PaperworkReductionActof1995, or E-                      regarding HHS programs and
                                          mail your request, including your                                                                             Washington, DC 20201.
                                                                                                  operations; (2) documenting the                          Region 1, Office of Investigations (OI),
                                          address, phone number, OMB number,                      outcome of OIG reviews of allegations
                                          and CMS document identifier, to                                                                               OIG, JFK Federal Building, Room 2475,
                                                                                                  and complaints received concerning                    Boston, Massachusetts 02203.
                                          Paperwork@cms.hhs.gov, or call the                      HHS programs and operations; (3)
                                          Reports Clearance Office on (410) 786–                                                                           Region 2, OI, OIG, 26 Federal Plaza,
                                                                                                  aiding in prosecutions brought against                Room 13–124, New York, New York
                                          1326.                                                   the subjects of OIG investigations; (4)
                                             Written comments and                                                                                       10278.
                                                                                                  maintaining a record of the activities                   Region 3, OI, OIG, Public Ledger
                                          recommendations for the proposed
                                                                                                  that were the subject of investigations;              Bldg., 150 South Independence Mall
                                          information collections must be mailed
                                                                                                  (5) reporting the results of OIG                      West, Suite 326, Philadelphia,
                                          or faxed within 30 days of this notice
                                                                                                  investigations to other departmental                  Pennsylvania 19106.
                                          directly to the OMB desk officer: OMB
                                                                                                  components for their use in operating                    Region 4, OI, OIG, Atlanta Federal
                                          Human Resources and Housing Branch,
                                                                                                  and evaluating their programs and the                 Office, 61 Forsyth Street, SW., Suite
                                          Attention: Carolyn Lovett, New
                                                                                                  imposition of civil or administrative                 5T18, Atlanta, Georgia 30303.
                                          Executive Office Building, Room 10235,
                                                                                                  sanctions; and (6) acting as a repository                Region 5, OI, OIG, 233 North
                                          Washington, DC 20503, Fax Number:
                                                                                                  and source for information necessary to               Michigan Avenue, Suite 1330, Chicago,
                                          (202) 395–6974.
                                                                                                  fulfill the reporting requirements of 5               Illinois 60601.
                                            Dated: November 30, 2006.                             U.S.C. App. 3.                                           Region 6, OI, OIG, 1100 Commerce
                                          Michelle Shortt,                                           This system of records was first                   Street, Room 629, Dallas, Texas 75242.
                                          Director, Regulations Development Group,                published in the Federal Register on                     Region 7, OI, OIG, 1201 Walnut, Suite
                                          Office of Strategic Operations and Regulatory           November 2, 1990 (55 FR 46248). The                   920, Kansas City, Missouri 64106.
                                          Affairs.                                                system of records was last revised and                   Region 9, OI, OIG, 50 United Nations
                                          [FR Doc. E6–20679 Filed 12–7–06; 8:45 am]               updated on June 19, 2003 (68 FR 36828),               Plaza, Room 174, San Francisco,
                                          BILLING CODE 4120–01–P                                  by adding a new routine use to allow                  California 94102.
                                                                                                  disclosure of information to authorized                  Los Angeles Region, OI, OIG, 600
                                                                                                  officials within the President’s Council              West Santa Ana Blvd., Suite 1100, Santa
                                          DEPARTMENT OF HEALTH AND                                on Integrity and Efficiency, in                       Ana, California 92701.
                                          HUMAN SERVICES                                          compliance with requirements
                                                                                                                                                        CATEGORIES OF INDIVIDUALS COVERED BY THE
                                                                                                  established by the Homeland Security                  SYSTEM:
                                          Office of Inspector General                             Act of 2002.
                                                                                                     In accordance with the Privacy Act                   Individuals relevant to a criminal
                                          Privacy Act of 1974; Revisions to OIG’s                 requirement that agencies publish their               investigation, including but not limited
                                          Privacy Act System of Records—                          amended systems of records in the                     to the subjects of an investigation,
                                          Criminal Investigative Files                            Federal Register when there is a                      complainants, and key witnesses where
                                                                                                  revision, change, or addition, OIG has                necessary for future retrieval.
                                          AGENCY: Office of Inspector General
                                          (OIG), HHS.                                             reviewed and is revising the criminal                 CATEGORIES OF RECORDS IN THE SYSTEM:
                                          ACTION: Notice of revisions to existing                 investigative files system of records by                 Criminal investigative files and
                                          Privacy Act systems of records.                         updating and amending the files’                      extracts from that file consisting of a
                                                                                                  ‘‘System Location’’ section. Records in
sroberts on PROD1PC70 with NOTICES




                                                                                                                                                        computerized case management and
                                          SUMMARY: The Office of Inspector                        this system have been located and                     tracking file.
                                          General (OIG) is revising the existing                  maintained in OIG’s regional offices,
                                          system of records, entitled ‘‘Criminal                  and the update of the ‘‘Systems                       AUTHORITY FOR MAINTENANCE OF THE SYSTEM:
                                          Investigative Files’’ (09–90–0003), by                  Location’’ section will simply reflect                  The Inspector General Act of 1978, 5
                                          updating the ‘‘Systems Location’’                       changes in mailing addresses and a                    U.S.C. App. 3, authorizes Inspectors


                                     VerDate Aug<31>2005   19:05 Dec 07, 2006   Jkt 211001   PO 00000   Frm 00061   Fmt 4703   Sfmt 4703   E:\FR\FM\08DEN1.SGM   08DEN1
                                                                       Federal Register / Vol. 71, No. 236 / Friday, December 8, 2006 / Notices                                             71181

                                          General to conduct, supervise, and                      agency in response to its request in                  of a security clearance, the letting of a
                                          coordinate investigations relating to the               connection with the hiring or retention               contract, or the issuance of a license,
                                          programs and operations of their                        of an employee, the issuance of a                     grant, or other benefit.
                                          respective agencies.                                    security clearance, the reporting of an                 m. Information from this system of
                                                                                                  investigation of an employee, the letting             records may be disclosed to third party
                                          PURPOSE(S):
                                                                                                  of a contract, or the issuance of a license           contacts, including public and private
                                             Pursuant to the Inspector General Act                grant, or other benefit by the requesting             organizations, in order to obtain
                                          of 1978, 5 U.S.C. App. 3, this system is                agency, to the extent that the record is              information relevant and necessary to
                                          maintained for the purpose of                           relevant and necessary to the requesting              the investigation of potential violations
                                          conducting, documenting, and tracking                   agency’s decision on the matter.                      in HHS programs and operations, or
                                          investigations conducted by the OIG or                     e. Relevant information may be                     where disclosure would enable the OIG
                                          other investigative agencies regarding                  disclosed from this system of records to              to identify violations in HHS programs
                                          HHS programs and operations,                            the news media and general public                     or operations or otherwise assist the OIG
                                          documenting the outcome of OIG                          where there exists a legitimate public                in pursuing on-going investigations.
                                          reviews of allegations and complaints                   interest, e.g., to provide information on               n. A record may be disclosed to any
                                          received concerning HHS programs and                    events in the criminal process, such as               official charged with the responsibility
                                          operations, aiding in prosecutions                      indictments, and where necessary, for                 to conduct qualitative assessment
                                          brought against the subjects of OIG                     protection from imminent threat to life               reviews of internal safeguards and
                                          investigations, maintaining a record of                 or property.                                          management procedures employed in
                                          the activities that were the subject of                    f. Where Federal agencies having the               investigative operations. This disclosure
                                          investigations, reporting the results of                power to subpoena other Federal                       category includes members of the
                                          OIG investigations to other                             agencies’ records, such as the Internal               President’s Council on Integrity and
                                          departmental components for their use                   Revenue Service, or issue a subpoena to               Efficiency and officials and
                                          in operating and evaluating their                       the department for records in this                    administrative staff within their
                                          programs and the imposition of civil or                 system or records, the department will                investigative chain of command, as well
                                          administrative sanctions, and acting as                 make such records available.                          as authorized officials of the Department
                                          a repository and source for information                    g. When the department contemplates                of Justice and the Federal Bureau of
                                          necessary to fulfill the reporting                      that it will contract with a private firm             Investigation.
                                          requirements of 5 U.S.C. App. 3.                        for the purpose of collating, analyzing,
                                                                                                  aggregating or otherwise refining                     POLICIES AND PRACTICES FOR STORING,
                                          ROUTINE USES OF RECORDS MAINTAINED IN THE               records in this system, relevant records              RETRIEVING, REVIEWING, RETAINING, AND
                                          SYSTEM, INCLUDING CATEGORIES OF USERS AND                                                                     DISPOSING OF RECORDS IN THE SYSTEM
                                                                                                  will be disclosed to such contractor. The
                                          PURPOSE OF SUCH USES:
                                                                                                  contractor shall be required to maintain              STORAGE:
                                            a. Information from this system of                    Privacy Act safeguards with respect to                   The records, which take the form of
                                          records may be disclosed to any other                   such records.                                         index cards, investigative reports,
                                          Federal agency or any foreign, State, or                   h. Disclosures may be made to                      microcomputer disks, computer
                                          local government agency responsible for                 organizations deemed qualified by the                 mainframe files and computer printed
                                          enforcing, investigating, or prosecuting                Secretary to carry out qualify                        listings are maintained under secure
                                          violations of administrative, civil, or                 assessments.                                          conditions in limited access areas.
                                          criminal law or regulation where that                      i. Information from this system of                 Written documents and computer disks
                                          information is relevant to an                           records may be disclosed in the course                are maintained in secure rooms, in
                                          enforcement proceeding, investigation,                  of employee discipline of competence                  security type safes or in lock bar file
                                          or prosecution within the agency’s                      determination proceedings.                            cabinets with manipulation proof
                                          jurisdiction.                                              j. Disclosures may be made to a                    combination locks. Computer
                                            b. Information from this system of                    congressional office from the record of               mainframe files are on-line in guarded,
                                          records may be disclosed to (1) The                     an individual in response to an inquiry               combination locked computer rooms.
                                          Department of Justice in connection                     from the congressional office made at
                                          with requests for legal advice and in                   the request of the individual.                        RETRIEVABILITY:
                                          connection with actual or potential                        k. Information from this system of                   Records are retrievable by manual or
                                          criminal prosecutions or civil litigation               records may be disclosed to the                       computer search of indices containing
                                          pertaining to the Office of Inspector                   Department of Justice, to a judicial or               the name or Social Security number of
                                          General, and (2) a Federal or State grand               administrative tribunal, opposing                     the individual to whom the record
                                          jury, a Federal or State court,                         counsel, and witnesses, in the course of              applies. Records may be cross-
                                          administrative tribunal, opposing                       proceedings involving HHS, an HHS                     referenced by case or complaint
                                          counsel, or witnesses in the course of                  employee (where the matter pertains to                number.
                                          civil or criminal proceedings pertaining                the employee’s official duties), or the
                                          to the Office of Inspector General.                     United States, or any agency thereof                  SAFEGUARDS:
                                            c. Information in this system of                      where the litigation is likely to affect                 Records are maintained in a restricted
                                          records may be disclosed to a Federal,                  HHS, or HHS is a party or has an                      area and accessed only by department
                                          State, or local agency maintaining civil,               interest in the litigation and the use of             personnel. Access within the OIG is
                                          criminal or other relevant enforcement                  the information is relevant and                       strictly limited to authorized staff
                                          records or other pertinent records, such                necessary to the litigation.                          members. All employees are given
                                          as current licenses, if necessary to                       l. Information of this system of                   instructions on the sensitivity of such
                                          obtain a record relevant to an agency                   records may be disclosed to a Federal,                files and the restrictions on disclosure.
sroberts on PROD1PC70 with NOTICES




                                          decision concerning the hiring or                       State or local agency maintaining                     Access within HHS is strictly limited to
                                          retention of an employee, the issuance                  pertinent records, if necessary, to obtain            the Secretary, Under-Secretary, and
                                          of a license, grant or other benefit.                   a record relevant to a department                     other officials and employees on a need-
                                            d. Information in this system of                      decision concerning the hiring or                     to-know basis. All mainframe computer
                                          records may be disclosed to a Federal                   retention of an employee, the issuance                files and printed listings are safeguarded


                                     VerDate Aug<31>2005   19:05 Dec 07, 2006   Jkt 211001   PO 00000   Frm 00062   Fmt 4703   Sfmt 4703   E:\FR\FM\08DEN1.SGM   08DEN1
                                          71182                        Federal Register / Vol. 71, No. 236 / Friday, December 8, 2006 / Notices

                                          in accordance with the provisions of the                DEPARTMENT OF HOMELAND                                Department of Homeland Security
                                          National Institute of Standards and                     SECURITY                                              (DHS), U.S. Customs and Border
                                          Technology Federal Information                                                                                Protection (CBP) published a Privacy
                                          Processing Standards 41 and 31, and the                 Office of the Secretary                               Act system of records notice (SORN) in
                                          HHS Information Resources                               [DHS–2006–0060]                                       the Federal Register regarding the
                                          Management Manual, Part 6, ‘‘ADP                                                                              Automated Targeting System (ATS) on
                                          Systems Security.’’                                     Privacy Act of 1974; System of                        November 2, 2006 (71 Fed. Reg. 64543).
                                                                                                  Records                                               As detailed in the SORN, ATS is the
                                          RETENTION AND DISPOSAL:                                                                                       enforcement screening module
                                                                                                  AGENCY:  Privacy Office; Department of                associated with the Treasury
                                            Investigative files are retained for 10               Homeland Security.
                                          years after completion of the                                                                                 Enforcement Communications System
                                                                                                  ACTION: Privacy Act System of Records                 and was previously covered by the
                                          investigation and/or action based
                                          thereon. Paper and computer indices are                 Notice; extension of comment period.                  Treasury Enforcement Communications
                                          retained permanently. The records                                                                             System ‘‘System of Records Notice.’’
                                                                                                  SUMMARY: This document provides
                                          control schedule and disposal standards                                                                       This system of records is subject to the
                                                                                                  additional time for interested persons to
                                          may be obtained by writing to the                                                                             Privacy Act of 1974, as amended (5
                                                                                                  submit comments on the system of
                                          Systems Manager at the address below.                                                                         U.S.C. 552a).
                                                                                                  records notice for the Department of
                                                                                                                                                           The DHS Privacy Office published the
                                                                                                  Homeland Security, U.S. Customs and
                                          SYSTEM MANAGER(S) AND ADDRESS:                                                                                Privacy Impact Assessment (PIA) for
                                                                                                  Border Protection Automated Targeting
                                                                                                                                                        ATS on November 24, 2006 on its Web
                                             Inspector General, Room 5250, Wilbur                 System.
                                                                                                                                                        site, www.dhs.gov/privacy under
                                          J. Cohen Building, Department of Health                 DATES: Comments on the Privacy Act                    ‘‘Privacy Impact Assessments.’’ The PIA
                                          and Human Services, 330 Independence                    System of Records Notice must be                      provides additional background
                                          Avenue, SW., Washington, DC 20201.                      received on or before December 29,                    information and context for the SORN,
                                                                                                  2006.                                                 including specific information on
                                          NOTIFICATION PROCEDURES:
                                                                                                  ADDRESSES: You may submit comments,                   measures taken by DHS to protect the
                                            Exempt. However, consideration will                   identified by docket number, by one of                privacy of persons whose information
                                          be given requests addressed to the                      the following methods:                                might be found in ATS.
                                          system manager. For general inquiries, it                  • Federal eRulemaking Portal: http://                 The SORN referenced above did not
                                          would be helpful if the request included                www.regulations.gov. Follow the                       identify or create any new collection of
                                          date of birth and Social Security                       instructions for submitting comments                  information; rather DHS merely
                                          number, as well as the name of the                      via docket number DHS 2006–0060.                      provided additional notice and
                                          individual.                                                • Fax: 202–572–8727.                               transparency of the functionality of
                                                                                                     • Mail: Comments by mail may also                  these pre-existing systems. The SORN
                                          RECORDS ACCESS PROCEDURE:                               be submitted to Hugo Teufel III, Chief                provided for a thirty day comment
                                            Same as notification procedures.                      Privacy Officer, Department of                        period which expired on December 4,
                                          Requestors should also reasonably                       Homeland Security, Washington, DC                     2006.
                                          specify the record contents being                       20528.
                                                                                                     • Instructions: All submissions                    Extension of Comment Period
                                          sought.
                                                                                                  received must include the agency name                   In response to the SORN published in
                                          CONTESTING RECORD PROCEDURES:                           and docket number for this rulemaking.                the Federal Register, and the PIA
                                                                                                  All comments received will be posted                  published on the web, DHS has received
                                            Contact the system manager at the                     without change to http://
                                          address specified above, and reasonably                                                                       a number of comments from the public
                                                                                                  www.regulations.gov, including any                    requesting an extension of the comment
                                          identify the record, specify the                        personal information provided.
                                          information to be contested, and the                                                                          period. DHS has decided to grant the
                                                                                                     • Docket: For access to the docket to              request for the extension. Accordingly,
                                          corrective action sought with supporting                read background documents or
                                          justification.                                                                                                the period of time for the submission of
                                                                                                  comments received go to http://                       comments is being extended. Comments
                                                                                                  www.regulations.gov.                                  are now due on or before December 29,
                                          RECORD SOURCE CATEGORIES:
                                                                                                  FOR FURTHER INFORMATION CONTACT: For                  2006.
                                            OIG collects information from a wide                  general questions please contact:                       Dated: December 4, 2006.
                                          variety of sources, including                           Laurence E. Castelli (202–572–8790),                  Hugo Teufel III,
                                          information from the department and                     Chief, Privacy Act Policy and                         Chief Privacy Officer.
                                          other Federal, State, and local agencies,
                                                                                                  Procedures Branch, Bureau of Customs
                                          witnesses, complaints and other                                                                               [FR Doc. 06–9595 Filed 12–5–06; 11:07 am]
                                                                                                  and Border Protection, Office of
                                          nongovernmental sources.                                                                                      BILLING CODE 4410–10–P
                                                                                                  Regulations & Rulings, Mint Annex,
                                          SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS
                                                                                                  1300 Pennsylvania Ave., NW.,
                                          OF THE ACT:                                             Washington, DC 20229. For privacy                     DEPARTMENT OF HOMELAND
                                                                                                  issues please contact: Hugo Teufel III                SECURITY
                                             In accordance with subsection (j)(2) of              (571–227–3813), Chief Privacy Officer,
                                          the Privacy Act, 5 U.S.C. 552a(j)(2), the               Privacy Office, U.S. Department of                    Coast Guard
                                          Secretary has exempted this system                      Homeland Security, Washington, DC
                                          from the access, amendment, correction,                 20528.                                                [USCG–2006–26298)
sroberts on PROD1PC70 with NOTICES




                                          and notification provisions of the Act, 5
                                          U.S.C. 552a(c)(3), (d)(1)–(4), (e)(3), and              SUPPLEMENTARY INFORMATION:                            Homeporting of Four National Security
                                          (e)(4)(G) and (H).                                      Background                                            Cutters at Alameda, CA; Environmental
                                                                                                                                                        Assessment
                                          [FR Doc. E6–20848 Filed 12–7–06; 8:45 am]                  To provide expanded notice and
                                          BILLING CODE 4152–01–P                                  transparency to the public, the                       AGENCY:    Coast Guard, DHS.


                                     VerDate Aug<31>2005   19:05 Dec 07, 2006   Jkt 211001   PO 00000   Frm 00063   Fmt 4703   Sfmt 4703   E:\FR\FM\08DEN1.SGM   08DEN1
